BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Reply Brief
for State Petitioners in 20-1775, The State of Arizona et
al. v. City and County of San Francisco et al., was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day and e-mail service to
the following parties listed below, this 8th day of
September, 2021:
Brian H. Fletcher
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Federal Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sara J. Eisenberg
San Francisco City Attorney's Office
City Hall, Room 234
1 Dr. Carlton B. Goodlett Place
San Francisco, CA 94102-4602
(415) 554-4633
sara.eisenberg@sfcityatty .org

Counsel for Respondents
City and County of San Francisco
Hannah Luke Edwards
Raphael Rajendra
Julia Spiegel
Laura S. Trice
James Robyzad Williams
Hannah Meredith Kieschnick
Office of the County Counsel
70 West Hedding Street
East Wing, 9th Floor
San Jose, CA 95110
(408) 299-6936
Luke.Edwards@cco.sccgov.org

Counsel for Respondent
County of Santa Clara

Helen H. Hong
California Department of Justice
Office of Solicitor General
600 West Broadway St., Suite 1805
San Diego, CA 92101
(619) 7389693
helen.hong@doj.ca. gov

Counsel for Respondents
State of California
Noah G. Purcell
Solicitor General
Office of the Washington Attorney General
800 Fifth Avenue, Suite 2000
Seattle, WA 98104-3188
(360) 753-6200
Noah.Purcell@atg.wa.gov

Counsel for Respondents
States of Washington, et al.

Brunn W. Roysden III
Solicitor General
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
bea u.roysden@azag.gov

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 8, 2021.

Becker Gallagher egal P ub is' ng, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary P.;;blic
[seal]

